Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





  CHILDREN’S USE OF HEALTH 

   CARE SERVICES WHILE IN 

   FOSTER CARE: GEORGIA





                     Inspector General

                      January 2005
                     OEI-07-00-00644
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG’s internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
  ∆         E X E C U T I V E                      S U M M A R Y



                    OBJECTIVE
                    To determine whether sampled children in the Georgia foster care
                    program receive health care services.


                    BACKGROUND
                    Section 471(a)(22) of the Social Security Act (the Act) requires States to
                    provide children in foster care with quality services that protect their
                    health and safety. Section 472(h)(1) of the Act deems children in foster
                    care eligible for Medicaid health care services. Georgia is the focus of
                    this inspection and is one of a series of eight States chosen to represent
                    a diverse cross section of foster care nationwide. All Title IV-E children
                    in the Georgia foster care program are eligible for Medicaid.

                    Federal Early and Periodic Screening, Diagnosis, and Treatment
                    (EPSDT) guidelines require each State to make preventive health care
                    services available to Medicaid-eligible individuals under the age of 21.
                    The guidelines also require States to establish intervals for providing
                    EPSDT examinations that meet reasonable standards of medical and
                    dental practice as outlined in sections 1902(a)(43) and 1905(r) of the
                    Act. A unique aspect of the Georgia foster care program is its First
                    Placement, Best Placement (FP/BP) Comprehensive Child and Family
                    Assessment policy, which requires that all children entering foster care
                    receive initial medical and dental examinations and a developmental
                    assessment or psychological evaluation.

                    This inspection is based on information gathered from multiple
                    sources. We reviewed Federal and State policies; analyzed
                    child-specific Medicaid claims data and case file documentation for
                    50 randomly sampled children in the Georgia foster care program; and
                    interviewed foster care providers (i.e., foster parents or residential care
                    facility staff), caseworkers for the children in our sample, and relevant
                    Georgia State staff. Our analysis focused on a 3-year claims period for
                    children in foster care ending on March 26, 2003.


                    FINDINGS
                    All 50 sampled children had Medicaid coverage, and 49 children had
                    claims for health care services. The 49 children with Medicaid claims
                    had a total of 3,574 claims during our review period.


OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   i
    E X E C U T I V E         S U            M M A R Y

                  Thirty of forty-three sampled children required to receive an EPSDT
                  medical examination received their most recent EPSDT medical
                  examination within State-established frequency guidelines.
                  According to State guidelines, 43 sampled children should have received
                  EPSDT services based on their age and length of time in foster care.
                  However, 13 of the 43 children did not receive an EPSDT medical
                  examination within State-established guidelines. Seven of the fifty
                  sampled children had been in foster care less than the time period that
                  would have required an EPSDT examination based on the EPSDT
                  guidelines established by the State.

                  Twenty-one of thirty-five sampled children required to receive an
                  EPSDT dental examination received their most recent EPSDT dental
                  service within State-established frequency guidelines. The EPSDT
                  frequency guidelines adopted by Georgia required that children 3 years
                  of age or older receive dental services every 6 months. Thirty-five of the
                  sampled children were 3 years of age or older and, therefore, should
                  have received dental services.
                  Many of the sampled children did not receive First Placement, Best
                  Placement assessments within the State-required timeframe.
                  Georgia State guidelines required that 39 of the 50 sampled children
                  receive FP/BP services upon entry into foster care during the period
                  covered by our Medicaid claims. Fourteen children did not receive
                  required FP/BP medical examinations within the required timeframe.
                  Thirteen of the twenty-four children required to have an FP/BP dental
                  examination did not receive it timely, and 4 of the 16 children required
                  to receive a developmental assessment and 8 of 23 children required to
                  receive a psychological evaluation did not receive it within the required
                  timeframe.
                  Four sampled children did not receive services to address
                  documented mental health needs, and mental health needs were
                  not documented for five children who received such services.
                  Federal law requires that case plans be developed, and the Georgia
                  Division of Family and Children Services requires that these plans
                  include information regarding the child’s current emotional and
                  psychological status. Case plans or State-required FP/BP assessments
                  for four sampled children clearly indicated a need for mental health
                  services. However, no Medicaid claims for mental health services
                  existed, and the caseworkers and foster care providers for these children
                  stated they were not receiving mental health services. Medicaid claims,
                  caseworkers, and foster care providers for five other sampled children

OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   ii
      E X E C U T I V E            S U           M M A R Y

                  indicated the children received mental health services, but the need for
                  mental health services was not documented in the case plans for these
                  children.
                  Twenty-four of the fifty foster care providers reported never
                  receiving medical information for the children in their care.
                  Section 475(5)(D) of the Act requires that the health records of children
                  in foster care be reviewed, updated, and supplied to the foster care
                  providers at the time of placement. Caseworkers for 21 of the
                  24 children whose foster care providers reported they did not receive
                  medical information stated they had received or compiled some medical
                  information for the sampled children.


                  RECOMMENDATIONS
                  The Administration for Children and Families (ACF) and the Centers
                  for Medicare & Medicaid Services (CMS) should work with the Georgia
                  Department of Community Health to ensure that:
                     	   The EPSDT medical examinations and dental services are received
                         timely.

                  ACF should work with the Georgia Department of Human Resources,
                  Division of Family and Children Services (DFCS) to ensure that:
                         Assessments are completed within the required timeframe.

                         Foster care providers receive initial and updated medical
                         information for children placed in their care.

                  In addition, ACF should work with DFCS to ensure that case files
                  contain required documentation, including mental health needs.
                  Further, during the course of this study, we noted that some of the
                  components of the FP/BP Comprehensive Child and Family
                  Assessments mirrored the components required as part of EPSDT.
                  We encourage ACF, CMS, DFCS, and the Georgia Department of
                  Community Health to consider allowing services provided under either
                  program to count for meeting the requirements of both programs, as
                  appropriate.


                  AGENCY COMMENTS
                  ACF described actions it is taking that will address our
                  recommendations. The ACF is monitoring the State of Georgia’s actions
                  through quarterly reports relative to the State’s efforts to ensure that
                  EPSDT medical examinations and dental services are received timely

OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   iii
    E X E C U T I V E         S U            M M A R Y

                  and to ensure that foster care providers receive appropriate medical
                  information for children placed in their care.

                  CMS concurred with the Office of Inspector General (OIG)
                  recommendation and will have CMS regional office staff work with the
                  Georgia Department of Community Health to ensure that EPSDT
                  services are provided according to the State-established EPSDT
                  frequency guidelines. CMS also notes that its staff are available to the
                  State and to ACF to provide any necessary technical assistance.
                  Additionally, in response to an OIG suggestion, CMS will not prohibit
                  FP/BP assessments from serving as EPSDT screenings if the screenings
                  are provided in accordance with the State-established EPSDT frequency
                  guidelines and meet the definition of an EPSDT screening, with all age
                  appropriate screens and services being provided.




OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   iv
∆   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                     Medicaid coverage for children in foster care. . . . . . . . . . . . . . . . . . . 10 


                     Receipt of EPSDT medical examinations . . . . . . . . . . . . . . . . . . . . . . 11 


                     Receipt of EPSDT dental services . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                     Timeliness of First Placement, Best Placement services . . . . . . . . 12 


                     Documentation and receipt of mental health services . . . . . . . . . . 15 


                     Medical information for foster care providers . . . . . . . . . . . . . . . . . . 16 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         APPENDIXES
                     A: 	EPSDT and First Placement, Best Placement 

                         Required Components . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                     B: 	Demographic Characteristics of Sampled Children . . . . . . . . . . 20 


                     C: 	Medicaid Claims for Sampled Children . . . . . . . . . . . . . . . . . . . . 22 


                     D: 	EPSDT Services for Sampled Children . . . . . . . . . . . . . . . . . . . . . 24 


                     E:	 First Placement, Best Placement Assessments . . . . . . . . . . . . . . 26 


                     F: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 

  ∆         I N T R O D U C T I O N


                    OBJECTIVE
                    To determine whether sampled children in the Georgia foster care
                    program receive health care services.


                    BACKGROUND
                    At the time of our review, an estimated 542,000 children were in foster
                    care nationwide,1 many of whom were reportedly in poor health. To
                    determine if children in foster care are receiving mandated health care
                    services, we selected eight States for review.2 The States were chosen
                    to represent a diverse cross section of foster care nationwide. Georgia
                    was selected for its medium population size based on Bureau of the
                    Census data when compared to other States.3 It was also chosen for its
                    southern geographic location, largely rural setting, county-administered
                    child welfare system, and fee-for-service provision of Medicaid services.
                    Georgia had 13,149 children in foster care at the end of fiscal year
                    (FY) 2002, based on the most recent Federal data available at the time
                    of this study.4 The Administration for Children and Families (ACF)
                    has regulatory oversight of the Title IV-E foster care program, including
                    approval of State plans to ensure State foster care programs are
                    operating within Federal guidelines. Within Georgia, the Department
                    of Human Resources, Division of Family and Children Services (DFCS),
                    manages the Title IV-E foster care program.

                    Compared with other children from the same socioeconomic
                    backgrounds, children in foster care suffer much higher rates of serious
                    physical and psychological problems.5 Vision, hearing, and dental
                    problems are prevalent in the foster care population, and physical
                    health problems (e.g., delayed growth and development, malnutrition,



                    1 Department of Health and Human Services, Administration for Children and Families, Adoption and
                      Foster Care Analysis and Reporting System Report for the period ending September 30, 2001.
                      Retrieved July 6, 2004 from http://www.acf.hhs.gov/programs/cb/publications/afcars/report8.htm.
                    2 Other States selected for review are Illinois, Kansas, New Jersey, New York, North Dakota,
                     Oregon, and Texas.
                    3 Bureau of the Census, retrieved January 21, 2004, from http://www.factfinder.census.gov/.
                    4 Department of Health and Human Services, Administration for Children and Families, Foster Care:
                      Entries, Exits, and In Care on the Last Day. Retrieved on January 13, 2004, from
                      http://www.acf.hhs.gov/programs/cb/dis/tables/entryexit2002.htm.
                    5 Casey Family Programs, National Center for Resource Family Support, Health Care Issues for Children
                      in Foster Care, March 25, 2002.




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   1
    I N T R O D 
U C T        I O N


                  and asthma) affect 30 to 40 percent of children in the child welfare 

                  system.6

                  Children in foster care have greater health care needs, yet many foster
                  care providers reported having difficulty finding health care
                  professionals who were willing to care for these children (we use the
                  term “foster care provider” to refer to a foster parent or a residential
                  care facility who is responsible for a child in foster care).7 The health
                  care available for children in foster care is often characterized by lack of
                  access; lack of information sharing among health care professionals; and
                  long delays in obtaining services.8 Furthermore, studies have shown
                  that low percentages of children in foster care are actually receiving
                  services.9 Therefore, concern exists that children with the greatest
                  health care needs may not be receiving needed services.

                  The Early and Periodic Screening, Diagnosis, and Treatment (EPSDT)
                  program is designed to screen for, diagnose, and treat medical
                  conditions in Medicaid-eligible individuals under the age of 21 that
                  might otherwise go undetected or untreated. However, a Government
                  Accountability Office report released in July 2001 stated that available
                  data from short-range studies showed that the percentage of children in
                  the general population receiving EPSDT services is very low.10
                  Periodic dental care (i.e., oral screenings and examinations) is included
                  as part of EPSDT and must be performed by a dentist. Georgia
                  requirements for EPSDT services require that every child receive dental
                  services in accordance with the frequency guidelines developed by the
                  State and at other intervals as medically necessary. The EPSDT dental
                  frequency guidelines must be established after consultation with
                  recognized dental organizations involved in child health care.




                  6 Fact Sheet: The Health of Children in Out-of-Home Care. Child Welfare League of America.
                     Retrieved October 17, 2002, from http://www.cwla.org/programs/health/healthcarewfact.htm.
                  7 Chernoff, R. et. al., (1994) Assessing the Health Status of Children Entering Foster Care,
                     Pediatrics, 93:2, 594-601.
                  8 Health Care of Young Children in Foster Care, Pediatrics, 109:3, 2002.
                    Retrieved January 14, 2004, from http://www.aap.org/policy/re0054.html.
                  9 Ensuring the Healthy Development of Foster Children, New York State Permanent Judicial
                    Commission on Justice for Children, 1999 and Medicaid: Stronger Efforts Needed to Ensure
                    Children’s Access to Health Screening Services, Government Accountability Office, GAO-01-749,
                    July 2001.
                  10 Medicaid: Stronger Efforts Needed to Ensure Children’s Access to Health Screening Services.
                     Government Accountability Office, GAO-01-749, July 2001.



OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   2
    I N T R O D 
U C T       I O N



                  Medicaid for Children in Foster Care
                  All children in the Georgia Title IV-E foster care program are eligible
                  for Medicaid. Section 472(h)(1) of the Social Security Act (the Act)
                  deems children eligible for Medicaid health care services and
                  section 1902(a)(10)(A)(i)(I) of the Act requires that Medicaid services be
                  made available to them. Federal EPSDT guidelines require each State
                  to make comprehensive and preventive child health services available to
                  Medicaid-eligible individuals under the age of 21, as outlined in
                  sections 1902(a)(43) and 1905(r) of the Act. Within a broad framework,
                  each State establishes its own Medicaid eligibility standards;
                  determines the types, amount, duration, and scope of Medicaid services;
                  sets the rate of payment for services to Medicaid patients; and
                  administers its own Medicaid program.11
                  In FY 2000, Medicaid payments for children in foster care nationwide
                  totaled over $3.3 billion.12 Georgia Medicaid expenditures for this
                  population totaled approximately $36 million in 2000.13 The Centers
                  for Medicare & Medicaid Services (CMS) is responsible for the Federal
                  oversight of individual State Medicaid programs. The Georgia
                  Department of Community Health manages the State Medicaid
                  program.
                  Georgia Health Check
                  In accordance with Federal law, participation in the Medicaid program
                  requires States to establish EPSDT guidelines for all Medicaid-eligible
                  individuals under 21 years of age.14 State EPSDT programs must
                  provide medical, hearing, vision, and dental screenings, and other
                  necessary health care and treatment at intervals established by the
                  State that meet reasonable standards of practice published by
                  recognized health care organizations.15 Georgia has established the
                  Health Check program to meet Federal EPSDT requirements.




                  11 Retrieved September 12, 2002, from http://cms.hhs.gov/medicaid/eligibility/criteria.asp.
                  12 Department of Health and Human Services, Medicaid Statistical Information System (MSIS) Report
                     Fiscal Year 2000: All States. Retrieved January 14, 2004, from
                     http://www.cms.gov/medicaid/msis/00ga.pdf.
                  13 Department of Health and Human Services, Medicaid Statistical Information System (MSIS) Report
                     Fiscal Year 2000: Georgia. Retrieved January 14, 2004, from
                     http://www.cms.gov/medicaid/msis/00ga.pdf.
                  14 Section 1905(a) of the Social Security Act.
                  15 Section 1905(r) of the Social Security Act.




OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   3
    I N T R O D 
U C T       I O N



                  The current frequency schedule established for the Health
                  Check EPSDT program requires a complete physical examination at
                  birth; 1, 2, 4, 6, 9, 12, 15, and 18 months of age; annually from 2 to
                  5 years of age; and every other year between 6 and 21 years of age.
                  The frequency schedule requires that vision and hearing screenings be
                  included as part of every Health Check physical screening for all
                  children regardless of their age, if determined necessary based on their
                  medical history. Health Check also requires dental services, separate
                  from the medical examinations, and that all children 3 years of age and
                  older receive dental services every 6 months.16
                  Georgia requires that caseworkers refer all children entering foster care
                  to the Medicaid eligibility office and that caseworkers coordinate with
                  Medicaid-eligibility workers to determine the Title IV-E foster care and
                  Medicaid program eligibility for the children they refer. All children
                  determined eligible for Title IV-E foster care funds in Georgia are
                  automatically eligible for Medicaid health care services.17
                  Further, Georgia requires State child welfare staff (e.g., eligibility
                  specialists and caseworkers) to inform all foster care providers caring
                  for Medicaid-eligible children of the availability of EPSDT services and
                  to document that such services were offered. The foster care caseworker
                  is also responsible for arranging appropriate and timely medical care for
                  children in foster care, obtaining health-related documents for the case
                  record, and making arrangements for the children to receive initial
                  health examinations as soon as possible after placement.18
                  First Placement, Best Placement
                  Georgia designed the First Placement, Best Placement (FP/BP) program
                  in response to the Adoption and Safe Families Act, Public Law 105-89.19
                  This Act requires States to develop case plans for children entering
                  foster care to ensure reasonable efforts are made to reunite them with
                  their families, ensure their health and safety while they are in foster
                  care, and ensure appropriate decisions are made regarding permanency
                  (e.g., reunification with the child’s family or adoption).


                  16 Georgia Multihealthnet System, Department of Community Health, Report Specification,
                     Health Notification Letter-Dental Screening, May 30, 2002.
                  17 Georgia Department of Community Health Manual, Section 2801-1, April 1, 2003.
                  18 Georgia Department of Human Resources, Social Services Manual, Chapter 1000,
                     Section 1007.3, May 2000.
                  19 The Adoption and Safe Families Act, Administration for Children and Families, Program Instruction,
                     ACYF-CB-PI-98-02, January 8, 1998.



OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   4
      I N T R O D   U C T          I O N 





                    The FP/BP program policy requires that all children entering foster care
                    after July 1999 receive a Comprehensive Child and Family Assessment,
                    which includes (1) the completion of a family assessment detailing the
                    child’s family history, a summary of the child’s strengths, needs, and
                    functional level,20 (2) a medical examination, (3) a dental examination,
                    and (4) a developmental assessment for children 3 years of age or
                    younger or a psychological evaluation for children 4 to 21 years of
                    age. 21 Information obtained through the Comprehensive Child and
                    Family Assessments aid child welfare agency staff, juvenile courts,
                    families, and foster care providers in making decisions that will assure
                    the safety and well-being of children in foster care.22
                    All children entering foster care in Georgia must be referred for
                    FP/BP services within 5 working days of the 72-hour detention
                    hearing.23 The FP/BP caseworkers then have 30 days from the date of
                    the referral to complete the Comprehensive Child and Family
                    Assessment. At the time of our review, DFCS was contracting with
                    80 private entities to provide FP/BP services, which included the
                    development of a case plan and determination of needed interventions
                    and services for all children entering foster care in Georgia.

                    Medical and dental examinations to rule out conditions that may impact
                    the child’s overall well-being are required each time a child enters foster
                    care.24 Some of the components required as part of the Comprehensive
                    Child and Family Assessment (e.g., medical and dental examinations
                    and developmental assessments and psychological evaluations) are also
                    required as part of an EPSDT screening, as shown in Appendix A.
                    However, FP/BP examinations and assessments are not used by the
                    State to satisfy the EPSDT frequency guideline requirements.




                    20 First Placement, Best Placement Manual, Section VI, June 2002 requires that a child’s functional
                        level be based on the Child and Adolescent Functional Scale, or Preschool and Early Childhood
                        Functional Scale.
                    21 First Placement, Best Placement Manual, Introduction Section, June 2002.

                    22 Ibid., p. 1.

                    23 The 72-hour detention hearing is used to determine if the State should retain custody of the child 

                        and maintain them in foster care.
                    24 First Placement, Best Placement Manual, Sections III and IV, June 2002.




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   5
    I N T R O D   U C T        I O N 





                   Initial Case Plan
                   To meet Federal requirements,25 Georgia child welfare policy stipulates
                   that caseworkers must develop an initial case plan for each child
                   entering foster care within 30 days of entering State custody.26 Each
                   child’s case plan must include information obtained from his/her
                   FP/BP assessment, information regarding family strengths and
                   resources, and goals established for the child and his/her family. To the
                   extent available, information regarding each child’s health (e.g., medical
                   history, known medical problems, medications, immunizations, current
                   health status, and dental status), the names and addresses of the child’s
                   health care professionals, and the child’s emotional and psychological
                   status are included in the initial case plan. State policy requires that
                   all case plans be reviewed and updated every 6 months.

                   Section 475(1)(B) of the Act requires States to develop a plan for each
                   child entering foster care to ensure their needs are addressed. Pursuant
                   to section 475(1)(C) of the Act, available and accessible health
                   information about a child is required to be included in the plan. Section
                   471(a)(15)(A) of the Act provides that the health and safety of children
                   in foster care be considered of paramount concern. Section 475(5)(D) of
                   the Act requires that a child’s health record be updated and supplied to
                   the foster care provider with whom the child is placed. Medical
                   information plays a role in ensuring children receive required health
                   care services. In response, Georgia requires caseworkers to discuss with
                   foster care providers the health status and health care needs of each
                   child in their care, and to give foster care providers medical health
                   information about each child placed in their care. Caseworkers are also
                   required to document that the foster care provider received the health
                   information on each child. The information provided to foster care
                   providers should include, at a minimum and where available and
                   accessible, the names and addresses of the child’s current health care
                   professionals, a record of the child’s immunizations, known medical
                   problems, medications, and any other relevant health information
                   determined appropriate to share with the foster care provider.27 If any
                   of this information is unknown or unavailable at the time the child is


                   25 45 CFR § 1356.21(g)(2) states that case plans must be developed no later that 60 days from the child’s

                      removal from the home.
                   26 Georgia Department of Human Resources, Social Services Manual, Chapter 1007.2, p.8, May 2000.
                   27 Georgia Department of Human Resources, Social Services Manual, Chapter 1007.2, p. 4, May 2000.




OEI-07-00-00644    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   6
    I N T R O D   U C T        I O N


                   placed with a foster care provider, the caseworker is to provide an
                   explanation regarding the missing information in the initial case plan.
                   Caseworkers are instructed not to leave the medical portion of the case
                   plan blank.28


                   METHODOLOGY
                   This inspection focused on the receipt of health care and dental services
                   that meet EPSDT guidelines; the receipt of mental health services; and
                   the provision of medical information to foster care providers. This study
                   did not focus on follow-up care or the appropriateness of ongoing health
                   care in meeting the needs of children in foster care. The inspection is
                   based on information gathered from multiple sources: review of Federal
                   and State policies; child-specific Medicaid claims data and case file
                   documentation for 50 sampled children; interviews with caseworkers
                   and foster care providers for the 50 sampled children; and interviews
                   with Georgia State agency officials.
                   Reasons for State Selection
                   Georgia was selected for its medium population size based on
                   Bureau of the Census data when compared to other States. It was also
                   chosen for its southern geographic location, largely rural setting,
                   county-administered child welfare system, and fee-for-service provision
                   of Medicaid services.
                   Sample
                   Children who met the following criteria were included in the study
                   population: (1) were in foster care on March 26, 2003; (2) resided in
                   Georgia; (3) were eligible for Title IV-E foster care program
                   maintenance funds; and (4) had been in continuous foster care
                   placements for at least 6 months. DFCS provided us with a list of the
                   9,711 children who met these criteria.29 Appendix B provides
                   information on the 50 children included in our study.




                   28 Georgia Department of Human Resources, Social Services Manual, Chapter 1011.2 (7), p. 4,
                      November 2000.
                   29 Based on the Adoption and Foster Care Analysis and Reporting System information regarding children
                      in foster care in Georgia, the Atlanta metropolitan area is underrepresented in the universe of
                      children in IV-E foster care. The percentage of children in foster care in the Atlanta region eligible
                      for IV-E foster care maintenance is significantly lower than the remainder of the State.



OEI-07-00-00644    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   7
    I N T R O D 
U C T      I O N


                  Review of Law, Regulations, Policies, Medicaid Data, and Case File 

                  Documentation 

                  Law, Regulation, and Policy Review—We reviewed Federal laws and
                  regulations and Georgia State foster care, Medicaid, and EPSDT
                  program policies. The Georgia Health Check program meets the
                  Federal EPSDT requirements. Therefore, we used State-established
                  Health Check frequency guidelines to determine whether children in
                  foster care were receiving required EPSDT medical examinations and
                  dental services timely.
                  Medicaid Claims Review—DFCS provided us with up to 3 years of
                  Medicaid claims data for each of the children in our sample. The
                  data included Medicaid claims for physician, dental, pharmaceutical,
                  and mental health services paid between March 26, 2000, and
                  March 26, 2003. For children entering foster care on or after
                  March 26, 2000, we analyzed Medicaid claims data from the date they
                  entered foster care through March 26, 2003. Appendix C provides the
                  number of Medicaid claims for each child in the sample who received
                  services during the period covered by our review.
                  Case File Documentation—We requested case file documentation from
                  Georgia DFCS local offices for all of the children in our sample,
                  including documentation of medical, dental and mental health services
                  provided, the child’s medical history, the child’s case plan, the FP/BP
                  Comprehensive Child and Family Assessment, verification of the
                  duration of the child’s stay in foster care, and information regarding the
                  child’s health and general well-being. We received case file
                  documentation for all 50 children.

                  We reviewed case file documentation to determine if each sampled child
                  had been referred for, scheduled for, or had actually received medical,
                  dental, or mental health services (e.g., EPSDT form signed by a
                  physician or other health care professional). Appendix D provides
                  information regarding each sampled child’s EPSDT services.

                  We also reviewed the case file documentation and Medicaid claims data
                  provided to determine if sampled children received FP/BP family
                  assessments, medical and dental examinations, and developmental
                  assessments or psychological evaluations, within the required
                  timeframes. To determine the timeliness of these assessments, we used
                  the dates listed on the copies of the assessment or evaluation reports.
                  Therefore, all children should have received a Comprehensive Child and
                  Family Assessment within 38 days of entering care. The 38 days

OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   8
    I N T R O D 
U C T      I O N


                  included completion of the court hearing required within 72 hours of
                  entering care, 5 days to complete a referral for a FP/BP assessment, and
                  30 days to complete the FP/BP assessment. We also reviewed Medicaid
                  claims data to identify initial medical examinations provided in
                  outpatient and emergency room settings. Appendix E identifies those
                  children who received FP/BP services and the types of services they
                  received.
                  Interviews
                  Foster Care Provider Interviews—We conducted structured interviews with
                  50 foster care providers responsible for the children in our sample (16 in
                  person and 34 by telephone). The interviews with foster care providers
                  (i.e., foster parent or residential care facility staff) focused on the
                  Medicaid program and the services available, the training they received
                  related to the health and well-being of children, and their experiences
                  procuring health care services for the children in our sample.
                  Caseworker Interviews—We conducted structured telephone interviews
                  with the caseworkers assigned to all 50 sampled children. Each of these
                  interviews focused on the caseworker’s understanding of the Medicaid
                  program and the health and mental health services available, the
                  training they received related to the health and well-being of children,
                  their experiences accessing health care services, and any barriers to
                  obtaining needed health care. Each caseworker spoke specifically about
                  the sampled child’s case, and generally about his or her own experiences
                  working in foster care. We analyzed the caseworkers’ responses and
                  compared them to those of the foster care providers, noting any
                  consensus or disagreement within and between the two groups.
                  State Agency Officials—To enhance our understanding of the State’s
                  foster care and Medicaid programs, we consulted, both in person and by
                  telephone, with DFCS and the Georgia Department of Community
                  Health staff.

                  This inspection was conducted in accordance with the Quality
                  Standards for Inspections issued by the President’s Council on Integrity
                  and Efficiency.




OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   9
∆
         F I N D I N G S


   All 50 sampled children had Medicaid coverage,             Federal law requires that all
         and 49 had claims for health care services           children eligible for the
                                                              Title IV-E foster care program be
                      provided Medicaid services. 30  In Georgia, all children in Title IV-E
                      foster care are automatically eligible for Medicaid, including EPSDT
                      services.31 Forty-nine of the fifty sampled children had Medicaid claims
                      for health care services during the 3-year period covered by our study.
                      One of the fifty sampled children, in foster care for over a year, had no
                      Medicaid claims for health care services during the period covered by
                      this study. Table 1 details the various types of Medicaid-covered
                      services and the number of claims by type of service provided for the
                      49 sampled children with claims for health care services.


                             Table 1: Number and Type of Medicaid Claims for
                                            49 Sampled Children
                                                      Number of
                                                                    Total Number of
                               Claim Type          Children with at
                                                                        Claims
                                                   Least One Claim
                            Case Management*              45               839
                                   Dental                 31               121
                                 Diagnostic               14               28
                          Hospital/Emergency Care         18                43
                                 Laboratory               23               80
                               Mental Health              37               494
                              Miscellaneous**             38               121
                           Optometry/Audiology            19               65
                           Physical/Occupational
                                                           3                15
                                  Therapy
                              Physician Office            44               326
                             Prescription Drug            46              1,335
                          Skilled/Residential Care         5               49
                            Surgical Procedures            4                10
                          Transportation/Supplies          7                8
                                Vaccines                  22                40
                                  Total                                  3,574
                     *	 Case management includes four Medicaid claims for Targeted Case Management.
                        The remaining Case Management claims are for child protective services and residential
                        care services case management.
                     ** Paid claims for which no diagnosis or procedure codes were given.
                        See Appendix C for the number and type of Medicaid claims for the sampled children.
                        Source: Office of Inspector General, 2004.




                      30 Section 1902(a)(10)(A)(i)(I) of the Social Security Act. 

                      31 Georgia Department of Community Health Manual, Part II-Chapter 700, April 2003.





OEI-07-00-00644       CHILDREN’S USE    OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   10
    F   I N D I N G         S       




                    Thirty of forty-three sampled children         The EPSDT medical
                   required to receive an EPSDT medical            examinations are intended to
                                                                   screen for and identify health
                  examination received their most recent
                                                                   needs that may not be detected
                      EPSDT medical examination within
                                                                   during a medical examination
                  State-established frequency guidelines           for a specific condition. All
                           age-appropriate EPSDT examinations must be completed in accordance
                           with the State-established EPSDT frequency guidelines. If a child
                           entering foster care has not received the required age-appropriate
                           EPSDT examinations in accordance with the frequency guidelines, the
                           child should receive the needed services at the earliest possible time.32
                           The Georgia DFCS is responsible for arranging appropriate and timely
                           medical care for all children in foster care and arranging for an initial
                           health examination as soon as the child is placed in foster care. Seven
                           of the fifty sampled children had been in foster care less than the time
                           period specified by the EPSDT frequency guidelines for their age group
                           and were not required to receive EPSDT examinations during that time.
                           Of the remaining 43 sampled children, 30 received their most recent
                           required EPSDT medical examinations within State-established
                           guidelines. However, 13 of the 43 sampled children who should have
                           received EPSDT medical examinations did not receive them within the
                           required timeframe. Caseworkers for 9 of these 13 children stated they
                           were familiar with the Health Check program and indicated they had
                           received training regarding EPSDT screenings or understood the
                           required health examination policies for children in foster care.

                                                                The EPSDT frequency guidelines
                  Twenty-one of thirty-five sampled
                                                                adopted by Georgia require that all
                children required to receive EPSDT
                                                                children 3 years of age or older
                dental services received their most             receive dental services every
                recent EPSDT dental service within              6 months and allow for all children
            State-established frequency guidelines              to be referred for dental services at
                                                                any time. Thirty-nine of the
                           sampled children were 3 years of age or older. However, we could
                           evaluate receipt of required dental services only for the 35 sampled
                           children with a full 6 months of Medicaid claims during our study
                           period.



                           32 Georgia Department of Community Health Manual, Part II, Chapter 900, Section 902, April 2003.




OEI-07-00-00644            CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   11
    F   I N D I N G      S


                        Only 21 of the 35 children required to receive dental services received
                        their most recent required dental service, in accordance with the
                        State-established EPSDT frequency guidelines. We were unable to
                        determine why the remaining 14 children did not receive their most
                        recent required dental services within the required timeframe. Only
                        1 foster care provider for the 14 children reported experiencing
                        problems finding a dentist that would accept Medicaid and treat the
                        sampled child in his/her care.

         Many of the sampled children did not receive            Section 471(a)(22) of the Act
        First Placement, Best Placement assessments              required States to develop and
                                                                 implement standards to
                   within the State-required timeframe
                                                                 ensure the health and safety
                      of children in foster care by January 1, 1999. In response to this
                      statute, Georgia DFCS established the FP/BP program in 1998
                      beginning with five demonstration counties. They implemented the
                      program statewide in July 1999.33 Policies governing the
                      FP/BP program require that children entering foster care after
                      July 1999 receive all services required as part of a Comprehensive Child
                      and Family Assessment (i.e., family assessment, medical and dental
                      examinations, and developmental assessment or psychological
                      evaluation) within 30 days from the date the DFCS caseworker makes
                      the referral to the FP/BP agency. In most respects, FP/BP components
                      mirrored those required as part of EPSDT examinations. See
                      Appendix A for a comparison of EPSDT and FP/BP required
                      components.

                      Forty of the fifty sampled children entered foster care after
                      July 1999 and, therefore, were required to receive a Comprehensive
                      Child and Family Assessment. However, we could determine
                      FP/BP compliance for only 39 of the sampled children because 1 child
                      entered foster care during the period covered by FP/BP policy, but
                      before the beginning of our Medicaid claims window. Not all children
                      received all of the required assessment services, and some services were
                      not received timely.




                        33 Georgia Department of Human Resources, Division of Family and Children Services, First

                             Placement/Best Placement Fact Sheet dated February 2003.



OEI-07-00-00644         CHILDREN’S USE    OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   12
    F   I N D I N G    S


                  Family Assessments are not completed timely.
                  The goal of a family assessment is to gather information about the child
                  and his/her family. The family assessment includes information about the
                  child’s history and aids in identifying services relating to the health and
                  safety of the child and his/her needs while in foster care. Caseworkers
                  provided us with family assessments for 26 of the 39 sampled children
                  covered by FP/BP. Fifteen of the twenty-six assessments were dated, but
                  only 2 of the 15 were completed within the required 30-day timeframe.
                  Eleven of the twenty-six assessments were not dated, and we were unable
                  to determine if they were completed within the required 30-day
                  timeframe. We did not receive family assessments for the remaining
                  13 sampled children and, therefore, were unable to determine if family
                  assessments for these children were completed or completed timely.
                  Fourteen of thirty-nine sampled children did not receive FP/BP medical
                  examinations within the State-required timeframe.
                  The initial medical examination documents the child’s medical history
                  upon entering foster care. This information is used by DFCS to assure
                  that the medical needs of children in foster care are addressed. Some of
                  the FP/BP initial medical examination components mirrored those
                  components required as part of EPSDT medical examinations.

                  Twenty-five of the thirty-nine sampled children required to receive FP/BP
                  services received their initial medical examinations timely. Twelve of
                  these thirty-nine children did not, waiting 46 to 435 days after entering
                  foster care to receive an initial medical examination. Two of the thirty-
                  nine sampled children did not have case file information or Medicaid
                  claims data to indicate they received the required medical examination
                  even though one child had been in foster care 242 days and the other had
                  been in foster care 398 days at the end of the period covered by our
                  Medicaid claims window.
                  Thirteen of twenty-four sampled children did not receive FP/BP dental
                  examinations within the State-required timeframe.
                  The initial dental examination, required for children age 3 and older,
                  documents the child’s dental history upon coming into foster care. DFCS
                  uses this information to ensure that the dental needs of children in foster
                  care are addressed. Like the initial FP/BP medical examinations,
                  FP/BP dental examination components mirrored those required as part
                  of EPSDT dental services.

                  Twenty-four of the thirty-nine sampled children were age 3 or older on the
                  date they entered foster care, and were required to have a dental

OEI-07-00-00644       CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   13
    F   I N D I N G    S


                  examination completed within 30 days from the date of referral to FP/BP.
                  However, only 7 of these 24 sampled children received their initial dental
                  examination timely. Thirteen children waited from 43 to 371 days after
                  entering foster care to receive their initial dental examinations, and four
                  children had no Medicaid claims for dental examinations.
                  Some sampled children did not receive developmental assessments or
                  psychological evaluations within the State-required timeframe.
                  Developmental Assessments—The initial developmental assessment screens
                  and assesses developmental milestones and characteristics for children 3
                  years of age or younger when they enter foster care. The information
                  from these assessments is critical in making placement decisions,
                  developing case plans, assuring the safety and well-being of the child, and
                  obtaining services for children who have developmental delays. The
                  EPSDT guidelines do not require that children receive an initial
                  developmental assessment but some of the aspects of the initial
                  assessment meet the EPSDT developmental/behavioral component
                  requirements.

                  Sixteen of the thirty-nine sampled children referred to FP/BP were
                  3 years of age or younger when they entered foster care. Two of these
                  sixteen sampled children received their developmental assessment timely.
                  Ten of the sixteen sampled children received their developmental
                  assessments 40 to 885 days after entering foster care. We were unable to
                  document the receipt of the required initial developmental assessment for
                  4 of the 16 children because there was no Medicaid claim to indicate an
                  assessment had been completed and no developmental assessment report
                  was included in the case file.
                  Psychological Evaluations—Initial psychological evaluations differ
                  from developmental assessments and are only required for children age
                  4 and older. These evaluations should include, but are not limited to, the
                  psychological status of the child or adolescent at the time they enter foster
                  care. If a psychological evaluation yields any mental health concerns, the
                  psychological summary and report must provide detailed
                  recommendations and actions to be taken.34 DFCS uses this information
                  to identify the child’s mental health service needs and to assure his/her
                  safety and well-being. The initial psychological evaluation is not required




                      34 First Placement, Best Placement Manual, Section IV, June 2002.




OEI-07-00-00644       CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   14
    F   I N D I N G      S


                      by the EPSDT frequency guidelines, but meets some of the EPSDT
                      developmental/behavioral component requirements.

                      Twenty-three of the thirty-nine sampled children referred to FP/BP were
                      4 to 21 years of age when they entered foster care. Fifteen of the twenty-
                      three sampled children received their psychological evaluations within
                      required timeframes. Eight of the twenty-three sampled children who
                      received a psychological evaluation did not receive it within the required
                      30-day timeframe, with receipt ranging from 41 to 461 days after referral.

    Four sampled children did not receive services to         Section 475(1)(B) of the Act
                                                              requires a case plan to be
     address documented mental health needs, and
                                                              developed for each child entering
   mental health needs were not documented for five
                                                              foster care, and that the plan
                children who received such services           should include steps for assuring
                       that the child receives safe and proper care. Section 475(1)(C) of the Act
                       requires the health records of the child including names and addresses
                       of providers, a record of immunizations, any known medical problems,
                       medications, and any other relevant health information also be included
                       in the plan. The Georgia DFCS further requires that case plans contain
                       information regarding the child’s current emotional and psychological
                       status.35 The Georgia DFCS requires caseworkers to complete case
                       plans within 30 days from the date a child enters foster care, and to
                       update the plans every 6 months.

                        Discrepancies existed in the documentation and receipt of mental health
                        services for 9 of the 50 sampled children. Four of the nine sampled
                        children had an assessment indicating a need for mental health
                        services. However, these four children received no additional mental
                        health services. The remaining five children had Medicaid claims
                        indicating they received mental health services, and caseworkers and
                        foster care providers for these children acknowledged the children were
                        getting their mental health services needs met, but the need for mental
                        health services was not documented. Documentation is essential to
                        ensure the continuation of needed services.




                        35 Georgia Department of Human Resources, Social Services Manual, Chapter 1007.8, p. 19, May 2000.




OEI-07-00-00644         CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   15
    F    I N D I N G      S 



                                                                Section 471(a)(15)(A) of the Act
         Twenty-four of the fifty foster care providers         provides that the health and
        reported never receiving medical information            safety of children in foster care be
                         for the children in their care         considered of paramount concern.
                                                                Medical information supplies
                         foster care providers with information necessary to ensure that the child
                         in their care receives proper care and that the child’s needs are met.
                         Section 475(5)(D) of the Act requires that a child’s health records be
                         reviewed and updated and supplied to the foster care provider with
                         whom the child is placed at the time of each placement. Georgia
                         requires all caseworkers to supply the foster care provider with a copy of
                         the health information on the child, and to document that the foster
                         care provider received the health information.36
                         Of the 50 foster care providers we interviewed, 24 stated they received
                         no medical information for the sampled children in their care. However,
                         caseworkers for 21 of these 24 children reported they had received or
                         compiled some medical information for the sampled children. While we
                         were unable to determine the reasons that available medical
                         information was not given to these 21 foster care providers, failure to
                         share this information indicates a problem in the communication of
                         medical information from caseworkers to foster care providers and could
                         result in children’s needs not being met.




                         36 Georgia Department of Human Resources, Social Services Manual, Chapter 1000,
                            Sections 1011.2, p.4, November 2000.



OEI-07-00-00644          CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   16
  ∆
        R E C O M M E N D A T I O N S




                    States are required to ensure that all children in foster care are
                    provided quality health care services that protect their health. States
                    are also required to develop a plan for each child that includes their
                    health care needs and medical information and to supply foster care
                    providers with a child’s health record at the time the child is placed
                    with them. Medical information plays a role in ensuring that children
                    receive required health care services. The EPSDT program is intended
                    to detect various health needs. The Georgia FP/BP program requires
                    that each child who enters foster care receive a Comprehensive Child
                    and Family Assessment. However, if children do not receive the
                    required EPSDT services or FP/BP assessments, or do not receive those
                    services timely, their health needs may go undetected and untreated.

                    ACF and CMS should work with the Georgia Department of Community
                    Health to ensure that:
                    o 	 The EPSDT medical examinations and dental services are
                        received timely.

                    ACF should work with the Georgia Department of Human Resources,
                    DFCS to ensure that:
                    o 	 Assessments are completed within the required timeframe.

                    o 	 Foster care providers receive initial and updated medical
                        information for children placed in their care.

                    In addition, ACF should work with DFCS to ensure that case files
                    contain required documentation, including mental health needs.
                    Further, during the course of this study, we noted that some of the
                    components of the FP/BP Comprehensive Child and Family
                    Assessments mirrored the components required as part of EPSDT.
                    We encourage ACF, CMS, DFCS, and the Georgia Department of
                    Community Health to consider allowing services provided under either
                    program to count for meeting the requirements of both programs, as
                    appropriate.




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   17
  ∆
        A G E N C Y        C O M M E N T S




                    ACF described actions it is taking that will address our
                    recommendations. It is monitoring the State of Georgia through
                    quarterly reports relative to the State’s efforts to ensure that EPSDT
                    medical examinations and dental services are received timely and to
                    ensure that foster care providers receive appropriate medical
                    information for children placed in their care.

                    CMS concurred with the OIG recommendation and will have CMS
                    regional office staff work with the Georgia Department of Community
                    Health to ensure that EPSDT services are provided according to the
                    State-established EPSDT frequency guidelines. CMS also notes that its
                    staff is available to the State and to ACF to provide any necessary
                    technical assistance. Additionally, in response to an OIG suggestion,
                    CMS will not prohibit FP/BP assessments to serve as EPSDT screenings
                    if the screenings are provided in accordance with the State-established
                    EPSDT frequency guidelines and meet the definition of an EPSDT
                    screening, with all age appropriate screens and services being provided.




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   18
   ∆         A P P E N D I X                           ~           A

                    EPSDT and First Placement, Best Placement Required Components
                            The table below provides a comparison of EPSDT and FP/BP
                            components.


                                                                                                                                  FP/BP
                          Screening/Examination                                      EPSDT Required
                                                                                                                                 Required
                               Components                                              Component
                                                                                                                                Component
                  INITIAL/INTERVAL                                                                   Y                                   Y
                  MEASUREMENTS
                           Height and Weight                                                         Y                                   Y
                           Head Circumference                                                        Y                                   Y
                           Blood Pressure                                                            Y                                   Y
                  SENSORY SCREENING
                           Vision                                                                    Y                                   Y
                           Hearing                                                                   Y                                   Y

                  MENTAL HEALTH                                                                      Y*                                  Y**

                  PHYSICAL EXAMINATION                                                               Y                                   Y
                  PROCEDURES                                                                         Y                                   Y
                          Hereditary/Metabolic                                                       Y                                   Y
                          Screening (newborn)                                                        Y                                   Y
                          Immunization                                                               Y                                   Y
                          Tuberculin Test                                                            Y                                   Y
                          Hematocrit or Hemoglobin                                                   Y                                   Y
                          Urine                                                                      Y                                   Y
                          Lead Screening                                                             Y                                   N
                  ANTICIPATORY GUIDANCE                                                              Y                                   Y
                  DENTAL EXAMINATION                                                                 Y                                   Y
                  *The EPSDT mental health component requires developmental/behavioral assessments
                   be performed by the physician who conducts the EPSDT medical examination.
                  **The FP/BP mental health component requires developmental assessments and
                    psychological evaluations be performed by trained professionals who specialize in the
                    field of mental health, and are more extensive than those required as part of an EPSDT
                    medical examination.




OEI-07-00-00644             CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A         19
∆    A P P E N D I X                       ~        B

                          Demographic Charactertics of Sampled Children
                                 The table below provides the demographic characteristics of each of
                                 the 50 sampled children and his or her foster care placement history
                                 as of June 1, 2003.


                                           Entries
                                                    Months Since Placements Months Since Caseworkers   Months
     OIG   Age in            Placement       into
                      Sex                           Foster Care Since Last      Last      Since Last Caseworker
     ID    Years              Setting       Foster
                                                     Entry (2)    Entry (3) Placement (4) Entry (5) with Case (6)
                                           Care (1)
      1       3       M        Family          1                    33                     1                     33                      3     24
      2      14       F        Family          1                    26                     2                     20                      *     7
      3      15       M      Residential       2                    13                     5                      4                      1     13
      4       1       M        Family          1                    21                     1                     21                      2     17
      5      11       F        Family          1                    28                     6                     18                      3     5
      6       2       F        Family          *                    18                     1                     18                      1     18
      7      11       M        Family          1                    14                     1                     14                      1     14
      8       7       M        Family          1                    13                     1                     13                      *     5
      9      16       F      Residential       1                    40                     7                     30                      4     22
      10      3       F        Family          1                    21                     1                     21                      2     4
      11      5       F        Family          1                    25                     2                     12                      3     12
      12      2       M        Family          1                    12                     2                      9                      1     12
      13     13       F        Family          2                    14                     1                     14                      4     1
      14     17       F       Kinship          1                    91                     1                     91                      2     12
      15     10       F       Kinship          2                    19                     4                     12                      4     1
      16     16       F        Family          *                    44                     3                     16                      *     24
      17     12       F        Family          1                    19                     2                     15                      2     12
      18      3       M        Family          1                     9                     1                      9                      1     9
      19     16       F      Residential       2                    35                     8                      7                      3     24
      20     17       F        Family          1                    52                     2                      9                      3     1
      21      7       M      Therapeutic       1                    29                     *                     19                      5     1
      22      3       M        Family          1                    22                     3                      1                      1     22
      23     12       M        Family          2                    11                     1                     11                      *     6
      24      8       M        Family          1                    20                     1                     20                      3     16
      25     16       F        Family          3                    20                     2                     18                      3     4
      26      9       M      Therapeutic       1                   116                     6                      1                      5     12
      27      1       M        Family          1                    15                     2                      1                      4     12
      28      2       F        Family          1                    31                     1                     31                      3     2
      29      9       F        Family          1                    75                     3                     13                      2     12
      30     15       M      Residential       1                    22                    10                      2                      3     3
      31      7       F        Family          1                    56                     2                      6                      8     6




    OEI-07-00-00644              CHILDREN’S USE    OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A        20
  A    P    P E N D     I X ~         B          




                                          Entries
                                                   Months Since Placements Months Since Caseworkers   Months
 OIG   Age in           Placement           into
                  Sex                              Foster Care Since Last      Last      Since Last Caseworker
 ID    Years             Setting           Foster
                                                    Entry (2)    Entry (3) Placement (4) Entry (5) with Case (6)
                                          Care (1)
  32       1      F       Family             1                    10                    1                     10                      2     6
  33       11     M      Kinship             2                   131                    *                    120                      3     5
  34       11     `F      Family             2                    10                    2                      8                      1     10
  35       17     F     Institution          1                   102                    3                     32                      5     18
  36       8      F       Family             1                    26                    1                     26                      *     24
  37       3      F       Family             2                    36                    2                     14                      3     5
  38       1      F       Family             1                    10                    1                     10                      1     10
  39       2      F       Family             1                    24                    2                      2                      3     11
  40       2      F       Family             1                    30                    1                     30                      2     29
  41       17     F     Residential          1                    19                    1                     19                      1     19
  42       9      F      Kinship             1                    37                    1                     37                      2     3
  43       1      F       Family             1                     9                    1                      9                      1     9
  44       17     M     Institution          1                    28                    5                     13                      *     27
  45       10     M       Family             1                    21                    3                      1                      *     13
  46       1      M       Family             1                    14                    2                      5                      2     12
  47       17     M     Therapeutic          1                    48                    1                     48                      3     2
  48       8      F      Kinship             2                    12                    2                      7                      *     10
  49       13     F       Family             1                    54                    *                     10                      6     16
  50       15     M     Residential          1                    21                   10                      3                      3     3
                           KEY

                           (1) Entries into Foster Care—number of times a child has entered State custody.
                           (2) Months Since Foster Care Entry—length of time from the date of the child’s
                           most recent entry into foster care until June 1, 2003, when interviews were
                           conducted with caseworkers and foster care providers, or the date the child left
                           care if that date precedes June 1, 2003.
                           (3) Placements Since Last Entry—total number of placements, in all settings
                           (e.g., Foster Home, Residential Care Facility), the child experienced during their
                           most recent entry into foster care.
                           (4) Months Since Last Placement—length of time from the date of the most
                           recent foster care placement to the date the foster care provider was interviewed.
                           (5) Caseworkers Since Last Entry—number of caseworkers assigned
                           responsibility for the child since his/her last entry into foster care.
                           (6) Months Caseworker with Case—number of months the most recent
                           caseworker has been assigned responsibility for the child.
                           (*) Indicates an unknown value.




OEI-07-00-00644            CHILDREN’S USE     OF     H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A        21
∆    A P P E N D I X                   ~         C


                               Medicaid Claims for Sampled Children
                               The table below indicates each of the 50 children’s paid Medicaid
                               claims for physician visits, dental services, prescription medications,
                               and mental health services from March 26, 2000, to March 26, 2003.

                                                       Number of Medicaid Claims*
                      OIG ID     Medical and             Dental               Prescription               Mental Health
                               Physician's Visits       Services              Medications                  Services
                        1             36                      0                      54                             0
                        2              2                      1                      11                            21
                        3              2                      0                      16                            11
                        4             13                      0                      10                             0
                        5              8                      3                      80                            25
                        6             10                      0                      50                             1
                        7              2                      2                      27                            28
                        8              1                      3                      12                             1
                        9              6                      0                      11                            62
                        10             0                      0                       6                             0
                        11             1                      0                       8                             1
                        12             0                      0                      25                             0
                        13             1                      3                       0                             0
                        14            15                      5                      30                             7
                        15             2                      0                      10                             4
                        16            12                     10                      22                             5
                        17             3                      4                      34                            14
                        18             6                      0                      16                             1
                        19            14                      3                      19                            12
                        20             5                      5                       4                             7
                        21             8                      4                      47                            26
                        22             9                      0                      27                             0
                        23             2                      1                      27                             2
                        24             4                      2                      24                             8
                        25             0                      5                       0                            19
                        26            17                      3                      54                            30
                        27             0                      0                       0                             0
                        28            35                      1                      19                             0
                        29             6                      4                      19                            84
                        30             4                      3                      40                            10
                        31             1                      1                       0                             1
                        32            11                      0                       5                             1
                        33             1                      3                       2                            18
                        34             0                      2                       7                             1




    OEI-07-00-00644            CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   22
    A   P   P E N D        I X ~        C        





                                                     Number of Medicaid Claims*

                  OIG ID     Medical and              Dental             Prescription                Mental Health
                           Physician's Visits        Services            Medications                   Services
                    35             7                      4                       5                            28
                    36             9                      6                      22                            10
                    37             10                     0                       9                             1
                    38             5                      0                      15                             0
                    39             1                      0                       1                             0
                    40             14                     0                      27                             0
                    41             1                      5                     137                             1
                    42             3                     13                       4                             1
                    43             2                      0                       1                             1
                    44             13                     8                     108                             1
                    45             3                      7                      22                            22
                    46             7                      0                      13                             0
                    47             7                      4                     187                             0
                    48             5                      1                      20                             2
                    49             0                      1                      31                            24
                    50             2                      4                      17                             3
                  TOTAL           326                   121                    1335                           494
                  KEY
                  * 	Includes only services for which a Medicaid claim was paid. Services
                     documented in the case file for which no Medicaid claims were paid are
                     not included.




OEI-07-00-00644            CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   23
∆    A P P E N D I X                   ~         D
                      EPSDT Services for Sampled Children
                               The table below reflects EPSDT services received by each of the
                               50 sampled children from March 26, 2000, to March 26, 2003, or from
                               entry into foster care to March 26, 2003, whichever is shorter.
                                       Medical             Case Plan                EPSDT Services Current (3)
                                      History In          Completed In
                        OIG ID
                                      Case File             30 Days                    Medical                  Dental
                                         (1)                   (2)
                          1                Y                        Y                       A                       D
                          2                Y                        Y                       C                       A
                          3                Y                        Y                       B                       D
                          4                Y                        Y                       A                       D
                          5                Y                        N                       B                       A
                          6                Y                        Y                       A                       D
                          7                Y                        Y                       B                       C
                          8                Y                        N                       B                       C
                          9                Y                       NP                       D                       C
                          10               Y                        Y                       C                       D
                          11               Y                        Y                       C                       C
                          12               Y                       NP                       C                       D
                          13               Y                        Y                       B                       C
                          14               Y                       NP                       B                       A
                          15               Y                        Y                       B                       C
                          16               Y                        Y                       B                       A
                          17               Y                       NP                       D                       A
                          18               Y                        N                       B                       D
                          19               Y                        Y                       B                       C
                          20               Y                        Y                       B                       A
                          21               Y                       NP                       C                       A
                          22               Y                        Y                       A                       D
                          23               Y                        Y                       C                       A
                          24               Y                        Y                       B                       A
                          25               Y                        Y                       B                       A
                          26               Y                       NP                       D                       C
                          27               Y                       NP                       C                       D
                          28               Y                       NP                       A                       B
                          29               Y                        Y                       C                       C
                          30               Y                       NP                       A                       C




    OEI-07-00-00644            CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   24
    A   P   P E N D   I X ~         D            



                                    Medical             Case Plan               EPSDT Services Current (3)
                                   History In          Completed In
                  OIG ID
                                   Case File             30 Days                   Medical                   Dental
                                      (1)                   (2)
                      31                Y                      NP                       A                        A
                      32                Y                       Y                       A                        D
                      33                Y                       Y                       B                        A
                      34                Y                       N                       C                        C
                      35                Y                      NP                       D                        C
                      36                Y                       Y                       A                        A
                      37                Y                      NP                       C                        C
                      38                Y                      NP                       C                        D
                      39                Y                      NP                       C                        D
                      40                Y                       Y                       A                        D
                      41                Y                       Y                       A                        A
                      42                Y                       Y                       D                        A
                      43                Y                       N                       A                        D
                      44                Y                       Y                       A                        A
                      45                Y                      NP                       D                        A
                      46                Y                       Y                       A                        D
                      47                Y                       Y                       B                        C
                      48                Y                       Y                       A                        A
                      49                Y                      NP                       C                        B
                      50                Y                      NP                       D                        B

                           KEY
                           (1) 	 Medical History in Case File—case file documentation provided by the
                                     sampled child’s caseworker included a medical history
                           (2) Case Plan Completed in 30 Days—case plan was completed within 30 days
                                     after the child entered foster care or was not provided to us. 

                                 Y - Case plan completed within 30 days. 

                                 N - Case plan not completed within 30 days. 

                                 NP - Case plan not provided to us. 

                           (3) EPSDT Services Current—Medical and Dental
                                 A - Most recent required service was received.
                                 B - One or more services were received, but the sampled child would not
                                     have been considered out of compliance if the service had not been
                                     received based on his/her age or the length of time the child had been in
                                     foster care at the time of our review. 

                                 C - Most recent required service was not received. 

                                 D - No services were received, but none were required during our
                                     claims window (i.e., the length of time the child had been in foster
                                     care and the period covered by our claims window did not extend
                                     the full length of time covered by the EPSDT frequency guidelines
                                     for the child’s age, or the child was under 3 years of age and not
                                     required to receive dental services).




OEI-07-00-00644            CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   25
   ∆         A P P E N D I X                             ~           E

                      First Placement, Best Placement Assessments
                              The table below reflects the number of days from the date of entry into
                              foster care to the date child received initial assessment services from a
                              First Placement, Best Placement professional.
            Child Entered    FP/BP Initial                                        Initial Required Services
           Care During the     Services
     OIG
              Medicaid        Required          Developmental                   Psychological                 Medical                        Dental
     ID
           Claims Window                         Assessment                      Evaluation                 Examination                    Examination
                 (1)              (2)                (3)                             (3)                        (4)                            (4)
      1           Y               Y                          X                            ●                           9                        ●
      2           Y               Y                          ●                           27                           4                         4
      3           Y               Y                          ●                           26                           3                        X
      4           Y               Y                          42                           ●                           2                        ●
      5           Y               Y                          ●                           33                          25                       371
      6           Y               Y                       335                             ●                          46                        ●
      7           Y               Y                          ●                           55                          19                       145
      8           Y               Y                          ●                           84                          61                        21
      9           N               Y
      10          Y               Y                          X                            ●                           8                        ●
      11          Y               Y                          ●                          461                           1                        X
      12          Y               Y                          X                            ●                         243                        ●
      13          Y               Y                          ●                           37                          34                        34
      14          N               N
      15          Y               Y                          ●                           28                         435                        X
      16          N               N
      17          Y               Y                          ●                           **                          49                        1
      18          Y               Y                          21                           ●                          26                        ●
      19          Y               Y                          ●                           35                          20                        43
      20          N               N
      21          Y               Y                          ●                           41                          38                       216
      22          Y               Y                          85                           ●                          17                        ●
      23          Y               Y                          ●                           98                         148                       168
      24          Y               Y                          ●                           23                           1                       123
      25          Y               Y                          ●                           15                           9                       290
      26          N               N
      27          Y               Y                          90                           ●                          X                         ●
      28          Y               Y                          58                           ●                         294                        ●
      29          N               N
      30          Y               Y                          ●                           33                           2                        23




OEI-07-00-00644               CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A                 26
  A P P E N D            I X ~ E              




           Child Entered  FP/BP Initial                                          Initial Required Services
          Care During the   Services
    OIG
          Medicaid Claims  Required               Developmental                 Psychological                 Medical                       Dental
    ID
             Window                                Assessment                    Evaluation                 Examination                   Examination
                (1)           (2)                      (3)                           (3)                        (4)                           (4)
     31           N              N
     32           Y              Y                        40                              ●                           5                       ●
     33           N              N
     34           Y              Y                         ●                             17                          X                        15
     35           N              N
     36           Y              Y                         ●                             25                         204                      156
     37           Y              Y                       885                              ●                         158                       X
     38           Y              Y                        X                               ●                          21                       ●
     39           Y              Y                        54                              ●                           2                       ●
     40           Y              Y                       150                              ●                           7                       ●
     41           Y              Y                         ●                             16                           1                       13
     42           Y              Y                         ●                             73                         121                      128
     43           Y              Y                        26                              ●                           9                       ●
     44           Y              Y                         ●                             13                         356                      213
     45           Y              Y                         ●                             41                           1                      125
     46           Y              Y                       140                              ●                           4                       ●
     47           N              N
     48           Y              Y                         ●                             13                           6                      130
     49           N              N
     50           Y              Y                         ●                            102                         340                      349
                  KEY
                  (1) Child Entered Care During the Medicaid Claims Window—child entered foster care
                  between March 26, 2000, and March 26, 2003.
                  (2) FP/BP Initial Services Required—child entered foster care after July 1999, and,
                  therefore, was required to receive FP/BP initial services.
                  (3) Developmental Assessment or Psychological Evaluation—number of days from the date
                  the sampled child entered foster care and receipt of a developmental assessment or
                  psychological evaluation. We used either the date of the psychological report from the child’s
                  case file or the Medicaid claims data date, whichever was closest to the child’s foster care
                  entry date.
                  (4) Medical Examination or Dental Examination—number of days from the date the sampled
                  child entered foster care and receipt of a medical examination or dental services. We used
                  the Medicaid claims data date or medical documentation from the case file, whichever was
                  closest to the child’s foster care entry date, to determine when the child received his/her first
                  outpatient, emergency room, or EPSDT medical examination.
                  X Indicates service not received.
                  ● Indicates that the service was not required based on the sampled child’s age at the time of
                  our review.
                  ** Child received a psychological evaluation 125 days before coming into foster care.




OEI-07-00-00644              CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A                 27
  ∆         A P P E N D I X                  ~           F




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   28
    A P P E N D   I X ~ F 





OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   29
    A P P E N D   I X ~ F 





OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   30
OEI-07-00-00644   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   31
  ∆
        A C K N O W L E D G M E N T S


                    This report was prepared under the direction of Brian Pattison, Regional
                    Inspector General for Evaluation and Inspections in the Kansas City
                    regional office, and Gina Maree, Assistant Regional Inspector General.
                    Other principal Office of Evaluation and Inspections staff that
                    contributed include:

                    Deborah Walden, Team Leader


                    Zula Crutchfield, Project Lead
er

                    Elander Phillips, Program Analyst

                    Linda Paddock, Program Analyst

                    Brian Whitley, Program Analyst

                    Steve Milas, Program Analyst

                    Michala Walker, Program Analyst

                    Linda Hall, Program Specialist

                    Barbara Tedesco, Mathematical Statistician




OEI-07-00-00644     CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E I N F O S T E R C A R E : G E O R G I A   32
